-,

                                CLOSEOUT FOR M99040025

            On April 30, 1999, the Office of Inspector General (OIG) learned of possible
     mismanagement of government fbnding by an educational training center.' According to
     the complainant, the pilot program for computer training at this educational training
     center was plagued by computer crashes and chronic mi~mana~ement.~  The complainant
     believed the pilot program was funded by the federal government.

             By searching NSF grant databases, we concluded that NSF did not provide any
     government funds to the pilot program. An internet search revealed three private
     organizations3 and one government agency4 associated with the educational testing
     center, which might provide additional information andlor assist in the resolution of these
     complaints. OIG provided the complainant with this information.

             As NSF funding is not involved in this pilot program, OIG closed this case and
     will take no further action.




     cc: Scientific Attorney, Integrity, IG




     ' Footnote redacted.
       Footnote redacted.
       Footnote redacted.
     4
       Footnote redacted.


                                              Page 1 of 1                               M99-25
